TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                             Statistical Portrayal of the
                          Criminal Investigation Division’s
                             Enforcement Activities for
                          Fiscal Years 2000 Through 2008



                                          March 26, 2009

                              Reference Number: 2009-30-053




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 26, 2009


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Statistical Portrayal of the Criminal Investigation
                                 Division’s Enforcement Activities for Fiscal Years 2000 Through 2008
                                 (Audit # 200930022)

 This report presents the results of our review of statistical information that reflects activities of
 the Criminal Investigation Division (the Division). The overall objective of this review was to
 provide statistical information and trend analyses for the Division’s enforcement activities for
 Fiscal Years (FY) 2000 through 2008. We conduct this review each year and it is included in
 our FY 2009 Annual Audit Plan under the major management challenge of Improving
 Performance and Budget Data for Financial and Performance Decisions.

 Impact on the Taxpayer
 We reviewed information from Criminal Investigation Management Information System1 reports
 to analyze trends and changes in the major areas of criminal enforcement. During FY 2008,
 some key performance measures declined, such as the number of subject investigations initiated,
 the number completed, and direct investigative time. Continued progress in the enforcement of
 criminal tax and tax-related violations is important to enhancing voluntary compliance and
 fostering confidence in the integrity of the tax system.




 1
     See Appendix IV for a glossary of terms.
                     Statistical Portrayal of the Criminal Investigation Division’s
                     Enforcement Activities for Fiscal Years 2000 Through 2008




Synopsis
We previously reported that the Division showed improvements in several key performance
areas from FYs 2006 through 2007. For example, the numbers of subject investigations initiated,
completed, and recommended for prosecution all showed improvement.
In FY 2008, the Division continued to demonstrate efficiencies processing investigations. For
example, the Division decreased the number of days needed to close legal and illegal source
investigations by 2.9 percent from the previous year. However, some key performance measures
that had improved the previous year declined: the number of subject investigations initiated
decreased nearly 11 percent; the number of subject investigations completed decreased
5.3 percent; and direct investigative time showed a slight decrease.
We believe that one of the causes for the decreases in the numbers of subject investigations
initiated and subject investigations completed was the continued rise in pipeline inventory and
the resources needed to address it. Pipeline inventory has steadily increased over the past 6 years
and now stands at a 9-year high of 4,118 subject investigations. FY 2008 is the second
consecutive year that the Division had more investigations in the pipeline than open subject
criminal investigations. The Division is spending more direct investigative time to prepare
investigations in the pipeline for adjudication instead of initiating new investigations. Division
management believes this is a positive trend since successful prosecutions generate publicity,
foster deterrence, and enhance voluntary compliance. For FY 2009, the Division indicated that it
would place a greater emphasis on the reduction of the pipeline inventory. This may result in
even fewer investigations being initiated and completed during the upcoming year. We are
currently conducting a separate review to evaluate the growth in pipeline inventory and to
identify any potential actions the Division can take in the future to reduce the resources devoted
to this area.2
We believe another cause for the decreases in subject investigations initiated and completed is
that the Division continues to lose experienced special agents to attrition faster than they can be
replaced. The number of special agents is currently at its lowest level in 30 years. The Division
attributes this to its budgets being relatively flat in recent years, which have put pressure on its
ability to replace agents lost through attrition because of the need to fund yearly salary increases.
Our concern noted last year about the net loss of experienced special agents negatively impacting
the Division’s productivity was realized during FY 2008. During FY 2009, the Division plans to
hire 192 special agents, but the new, inexperienced agents may not have a significant impact on
the Division’s FY 2009 performance goals.



2
 Impact of the Growth in Prosecution Pipeline Inventory on the Criminal Investigation Program (Audit
Number 200810008).
                                                                                                       2
                  Statistical Portrayal of the Criminal Investigation Division’s
                  Enforcement Activities for Fiscal Years 2000 Through 2008




Recommendations
We made no recommendations in this report. However, key Criminal Investigation Division
management officials reviewed the report prior to its issuance and agreed with the facts and
conclusions presented.
Copies of this report are also being sent to the Internal Revenue Service managers affected by the
report information. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                3
                         Statistical Portrayal of the Criminal Investigation Division’s
                         Enforcement Activities for Fiscal Years 2000 Through 2008




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Although the Division Continues to Show Efficiencies,
          Some Key Performance Measures Declined in Fiscal Year 2008 ................Page 3
          As the Division Continued to Apply Resources to Pipeline
          Inventory, Initiations and Completions Decreased.......................................Page 3
          Challenges Remain to Increase the Number of Special Agents ...................Page 5
          Time Spent on Legal Source Tax and Tax-Related Investigations
          Increased, but Several Trends Declined........................................................Page 6
          Investigations Initiated From External Sources Were Unchanged ...............Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Glossary of Terms................................................................Page 14
          Appendix V – Detailed Charts of Statistical Information.............................Page 17
          Appendix VI – Related Treasury Inspector General for Tax
          Administration Audit Reports.......................................................................Page 34
         Statistical Portrayal of the Criminal Investigation Division’s
         Enforcement Activities for Fiscal Years 2000 Through 2008




                       Abbreviations

BPR              Business Performance Review
CIMIS            Criminal Investigation Management Information System
FY               Fiscal Year
IRS              Internal Revenue Service
U.S.C.           United States Code
                      Statistical Portrayal of the Criminal Investigation Division’s
                      Enforcement Activities for Fiscal Years 2000 Through 2008




                                            Background

In February 2006, the Internal Revenue Service (IRS) released updated compliance estimates,
showing that the gross tax gap was $345 billion in Tax Year 2001. A 2008 taxpayer attitude
survey conducted by the IRS Oversight Board1 indicated that 9 percent of the surveyed
population believed that it was acceptable to cheat on their taxes, while 89 percent said it was not
at all acceptable. The current IRS Commissioner, while emphasizing a balanced program
between taxpayer service and tax enforcement, stressed the need for an aggressive enforcement
program for those who understand their tax obligations, but fail to comply.
The Criminal Investigation Division (the Division) prepared a Strategic Assessment document
for Fiscal Years (FY) 2007 to 2012 to supplement and implement the goals in the IRS’ Strategic
Plan. The compliance, business, and communication strategies of the Division include:
    •   Maintain focus on legal source tax investigations, partnering with the IRS operating
        divisions to deploy a successful Fraud Referral Program.
    •   Work effectively with the Department of the Treasury, the Department of Justice, and
        other law enforcement partners to combat corporate fraud, terrorism, and the financial
        aspects of other criminal activity and to enhance Bank Secrecy Act compliance efforts.
    •   Increase workforce productivity through improvements in recruitment, retention, and
        strengthened leadership.
    •   Increase efficiency through improvements in business systems and the reduction of
        investigative cycle time.
Since FY 2004,2 we have been presenting an annual statistical portrayal of the Division’s
enforcement activities. The objective of the initial audit was to provide statistical information
and trend analyses of the Division’s statistics since the issuance of the Webster Report3 in
April 1999. The Webster Report concluded that the Division had drifted away from its primary
mission of investigating criminal violations of the Internal Revenue Code and, as such,
recommended that the Division refocus on its mission.
Since then, the Division has created a revised mission statement, developed a compliance
strategy designed to guide in developing and investigating cases that fostered confidence in the
tax system, reduced narcotics-related investigations resources, publicized its investigations

1
  See Appendix IV for a glossary of terms.
2
  For more information, see Appendix VI, report 1.
3
  Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
as the Webster Report.
                                                                                                          Page 1
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2008



results, and conducted an empirical study to determine the effect investigations have on
voluntary compliance. The Division’s executives continue to emphasize the importance of
developing and investigating cases that have the greatest effect on tax administration, whether
the sources of income in those cases are derived from legal or illegal activities.
We initiated this review as part of our FY 2009 Annual Audit Plan coverage. While the overall
trend information presented covers FYs 2000 through 2008, our report concentrates on
1) analyzing program performance for the last 5 years, and 2) providing an indepth perspective
on program activities for the 2 most current fiscal years.
Our data analyses were performed in the Treasury Inspector General for Tax Administration’s
Chicago, Illinois, office during the period December 2008 through February 2009. We used
national reports from the Division’s management information system during our review.
Because of time and resource constraints, we did not audit the Division’s systems to validate the
accuracy and reliability of its information. Also, we did not assess internal controls because it
was not applicable within the context of our audit objective. Otherwise, we conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A glossary of terms is included in
Appendix IV. Detailed charts and tables referred to in the body of the report are included in
Appendix V. Much of the data included in this report updates prior audit reports on criminal
enforcement trends. See Appendix VI for a list of those reports.




                                                                                            Page 2
                     Statistical Portrayal of the Criminal Investigation Division’s
                     Enforcement Activities for Fiscal Years 2000 Through 2008




                                      Results of Review

Although the Division Continues to Show Efficiencies, Some Key
Performance Measures Declined in Fiscal Year 2008
In FY 2008, some of the key performance measures which previously showed improvements
declined. For example, direct investigative time showed a slight decrease to 64.1 percent in
FY 2008 from the 65 percent reported in FY 2007.4 In addition, in FY 2008 the number of
subject investigations initiated decreased nearly 11 percent, compared to an increase of
7.8 percent in FY 2007.5 The Division also did not meet its planned goal of initiating
4,100 subject investigations. The Division did achieve its goal for subject investigation
completions; however, the number completed decreased 5.3 percent from FY 2007.6 Among the
causes of the decreases in initiations and completions is the increase in time applied to address
pipeline inventory and staffing shortages. If these trends continue, we are concerned the results
will be that the Division becomes more selective in the cases it investigates.
The Department of Justice acceptance rate for the Division’s prosecution cases slightly decreased
to 93.6 percent from 94.6 percent in FY 2007. Similarly, the United States Attorneys’ Offices
acceptance rate decreased to 89.2 percent from 90.2 percent in FY 2007. We are not concerned
with these declines since both of the acceptance rates are higher than the rates the Division
achieved in FY 2006.
The Division continued to demonstrate efficiencies in the average length of time needed to close
an investigation. In 2003, the Commissioner raised concerns about the length of time it took to
recommend an investigation for prosecution. Since then, the Division has emphasized reduction
of cycle time and reported that elapsed days to recommend an investigation for prosecution
decreased 5.5 percent from FY 2007, and has decreased 11.1 percent since FY 2003.7

As the Division Continued to Apply Resources to Pipeline Inventory,
Initiations and Completions Decreased
In our past two statistical portrayals, we expressed concern with the increase in pipeline
inventory and the risk that it would affect future productivity levels.8 In FY 2008, as previously

4
  See Appendix V, Figure 2.
5
  See Appendix V, Figure 4.
6
  See Appendix V, Figure 15
7
  See Appendix V, Figure 16.
8
  See Appendix VI, Reports 4 and 6.
                                                                                            Page 3
                     Statistical Portrayal of the Criminal Investigation Division’s
                     Enforcement Activities for Fiscal Years 2000 Through 2008



stated, the number of subject investigations initiated declined 11 percent from FY 2007. Further,
the number of subject investigations completed decreased 5.3 percent from FY 2007. We
believe one of the causes for these decreases is the continued rise in the pipeline inventory and
the resources needed to address it. The Division acknowledges that its increase in resources
being devoted to pipeline inventory will result in subject investigation initiations, completions,
and prosecution recommendations numbers becoming flat or decreasing in the near term.
However, Division management also believes that devoting resources to pipeline inventory is a
positive trend since successful prosecutions generate publicity, foster deterrence, and enhance
voluntary compliance. We are currently conducting a separate review to evaluate the growth in
pipeline inventory and to identify any potential actions the Division may take to reduce the
resources devoted to this area in the future.9
Pipeline inventory (investigations referred to the Department of Justice for prosecution) has
steadily increased over the past 6 years and now stands at a 9-year high. FY 2008 ended with
4,118 subject investigations in the pipeline, a 1.4 percent increase over FY 2007, and a
34 percent increase since FY 2003.10 This is the second consecutive year that the Division had
more investigations in the pipeline than open subject criminal investigations (3,691). The ratio
of pipeline inventory to open subject criminal investigations has increased to 112 percent
compared to a ratio of 67 percent at the end of FY 2003.
In FY 2008, the amount of direct investigative time devoted to pipeline investigations increased
to 23.2 percent from 15.4 percent in FY 2003. According to the Division, a minimum number of
hours are required every quarter to manage the pipeline inventory. As more time and
investigative resources are expended on the pipeline inventory, fewer resources will be available
to initiate and complete investigations.
According to data reported in the Division’s Business Performance Review (BPR) documents,
the number of investigations at the Department of Justice Tax Division awaiting the
authorization of prosecution on tax charges has increased 6.8 percent since FY 2003, from 438 to
468 in FY 2008. However, the number of investigations in pre-indictment and post-indictment
status at the United States Attorneys’ Offices increased at a more significant rate. Investigations
in pre-indictment status have increased 60.3 percent, from 1,007 in FY 2003 to 1,614 in
FY 2008, and investigations in post-indictment status increased 25.1 percent, from 1,627 to
2,036 during the same period. A FY 2006 study by the Division’s Office of Planning and
Strategy concluded that the United States Attorneys’ Offices operational priorities were not
optimally aligned with the Division’s priorities. The continued increases in pipeline
investigations awaiting adjudication by the United States Attorneys’ Offices may reflect that
optimal alignment may still be an issue.


9
  Impact of the Growth in Prosecution Pipeline Inventory on the Criminal Investigation Program (Audit
Number 200810008).
10
   See Appendix V, Figure 11.
                                                                                                        Page 4
                      Statistical Portrayal of the Criminal Investigation Division’s
                      Enforcement Activities for Fiscal Years 2000 Through 2008



In FY 2008, the Department of Justice requested $5.2 million for its Tax Division to enhance
“Operation Continued Follow-Through,” a tax law enforcement initiative that supports the
President’s focus on reducing tax fraud. We had hoped that additional funding would alleviate
some of the delays the Division is experiencing with the Department of Justice. However, as we
have shown, the growth in pipeline inventory persists.
For FY 2009, the Division indicated that it would place a greater emphasis on the reduction of
the pipeline inventory. In addition, the FY 2009 performance goal for subject investigation
initiations was lowered 2.4 percent to 4,000 from the FY 2008 performance goal of 4,100. The
FY 2009 goal for completions was lowered 2.5 percent to 3,900 from the FY 2008 goal of 4,000.
We are concerned that the Division will not meet these goals due to the increased resources it is
applying to reduce the pipeline inventory coupled with the loss of experienced special agents in
recent years (as discussed in the following section).

Challenges Remain to Increase the Number of Special Agents
Total special agent staffing11 has decreased 6.5 percent since FY 2003, with the number of field
special agents decreasing 10.7 percent over the same period. According to the Division, the
number of special agents is currently at its lowest level in the past 30 years. The number of field
special agents decreased almost 7 percent from 2,435 in FY 2007 to 2,271 in FY 2008.12 The
Division attributes this to its budgets being relatively flat in recent years, which have put
pressure on its ability to replace agents lost through attrition because of the need to fund yearly
salary increases.
Increasing special agent staffing remains a challenge as the Division continues to lose
experienced special agents to attrition faster than they can be replaced. According to its BPR
report for FY 2008, the Division indicated that it hired 149 special agents during the year.
However, this was not enough to offset the attrition of 166 special agents. The Division
indicated it plans to hire 192 special agents during FY 2009 and expects the attrition of
150 special agents.
Our concern noted last year about the net loss of experienced special agents negatively impacting
the Division’s productivity has been realized. The Division initiated and completed fewer
subject investigations during the year, in part due to the loss of special agents. The Division’s
FY 2009 goals for subject investigations initiated and completed is lower than the goals set for
FY 2008. As previously stated, we believe the Division may have trouble meeting these goals
even with its plans to hire 192 special agents during the year. These new, inexperienced agents



11
   Includes new recruits, part-time special agents, field and Headquarters Office managers and program analysts, and
Lead Development Center and Fraud Detection Center special agents.
12
   See Appendix V, Figure 1.
                                                                                                            Page 5
                       Statistical Portrayal of the Criminal Investigation Division’s
                       Enforcement Activities for Fiscal Years 2000 Through 2008



may not have a significant impact on the Division’s performance goals during FY 2009 because
of the training they must undergo.

Time Spent on Legal Source Tax and Tax-Related Investigations
Increased, but Several Trends Declined
Last year, we reported increasing trends in several areas, including more time being spent on
legal source tax and tax-related investigations and increases in the number of those investigations
being initiated.13 The Division’s Annual Business Plans have consistently described legal source
tax investigations as a top investigative priority, and we believe these investigations are an
important component of all tax-related investigations. We previously challenged the Division’s
efforts to show progress towards increasing the level of legal source tax investigations, despite
its articulation of a focus on these types of investigations in its strategic documents.14
The Division has established a goal for the minimum amount of direct time spent on legal source
tax and total tax investigations.15 The Division’s goal for FY 2008 was to maintain a minimum
of 48 percent direct time on legal source tax investigations and 70 percent on total tax
investigations. The Division achieved its goal, spending 51.2 percent of its time on legal source
tax and 70.8 percent on total tax investigations, both at a 9-year high.16
The Division increased the percentage of direct investigative time spent on legal source tax and
total tax investigations despite also applying more time to narcotics-related investigations. We
previously raised a concern that a FY 2008 budget initiative to increase the direct investigative
time on narcotics-related cases, from 9.6 percent in FY 2006 to a range of 12 to 14 percent,
would affect the Division’s ability to investigate legal source tax and tax-related crimes. In
FY 2008, the amount of time spent on narcotics-related investigations was 12.3 percent.
However, the time spent on legal source tax and total tax investigations both increased. The
FY 2009 budget contains funding to continue the narcotics-related case initiative, and we expect
direct investigative time to remain at current levels.
In FY 2008, the number of legal source tax investigation initiations decreased by 8 percent, and
the number of tax-related initiations decreased by 9.3 percent. However, the percentage of all
initiations that were legal source tax and tax-related increased by 1.3 and 1.2 percentage points,



13
   See Appendix VI, Report 6.
14
   See Appendix VI, Report 2.
15
   During FY 2008, the Division changed how it calculates direct investigative time devoted to legal and illegal
source tax cases. The Division now calculates “total tax,” which is the percentage of direct investigative time
devoted to legal source and illegal source tax cases, in lieu of “tax and tax-related” because it is more representative
of the total resources the Division commits to its tax enforcement mission. This new computation includes time
spent on legal source general investigations that are a source of tax subject investigations.
16
   See Appendix V, Figure 3.
                                                                                                                Page 6
                     Statistical Portrayal of the Criminal Investigation Division’s
                     Enforcement Activities for Fiscal Years 2000 Through 2008



respectively.17 Case completions also showed decreases. The number of legal source tax
investigations referred for prosecution decreased 8.5 percent from FY 2007, but overall has
increased 8.5 percent since FY 2003. Tax-related investigations referred for prosecution also
decreased 9.3 percent since FY 2007 and has overall decreased 4.6 percent since FY 2003.18
Elapsed days on completed legal and illegal source investigations continue to show
improvements. The Division’s benchmark figure for legal and illegal source investigation
completions is 415 to 425 days. In FY 2008, the Division reported an average of almost
400 elapsed days for legal and illegal source investigation completions, 3.7 percent below the
benchmark range and 2.9 percent below the FY 2007 average of 412 days. The average elapsed
days to recommend a legal or illegal source investigation for prosecution were unchanged from
the average days of 407 in FY 2007, while the average of 386 days to discontinue a legal or
illegal source investigation improved 8.1 percent from the FY 2007 average days of 420.
The total open subject investigation inventory decreased 7.3 percent from FY 2007, and has
decreased substantially by 20 percent in the 5 years since FY 2003.19 The legal source tax open
inventory decreased slightly (0.9 percent) from FY 2007, and has decreased 9.1 percent since
FY 2003.20 Tax-related investigations in open inventory decreased about 2.5 percent from
FY 2007, and have decreased 17 percent since FY 2003.21
In addition, the number of subjects convicted of legal source tax crimes decreased 9 percent from
FY 2007, but has increased 39 percent since FY 2003. Similarly, the number of subjects
sentenced for legal source tax crimes also decreased 4.7 percent from FY 2007, but has increased
36.1 percent since FY 2003.22 The number of subjects sentenced for a tax-related crime
decreased 8.6 percent from FY 2007. However, the percentage of all sentences that were for
tax-related crimes was at 51.9 percent, the second highest percentage in 9 years and a slight
decrease (0.5 percentage points) from last year’s all-time high.23

Measuring the Division’s impact on voluntary compliance
In an effort to enhance voluntary compliance, the Division continued to emphasize publicizing
the results of tax prosecutions resulting from its tax investigations. The overall publicity rate for
prosecutions in FY 2008 was 81.6 percent—an all-time high, and 2.4 percent higher than the
publicity rate in FY 2007. The 88.5 percent publicity rate for legal source tax investigations is
also at an all time high.24 This increased exposure indicates the Division frequently receives

17
   See Appendix V, Figures 5 and 6.
18
   See Appendix V, Figures 17 and 18.
19
   See Appendix V, Figure 11.
20
   See Appendix V, Figure 13.
21
   See Appendix V, Figure 12.
22
   See Appendix V, Figures 24 and 27.
23
   See Appendix V, Figure 26.
24
   See Appendix V, Figure 30.
                                                                                              Page 7
                      Statistical Portrayal of the Criminal Investigation Division’s
                      Enforcement Activities for Fiscal Years 2000 Through 2008



media attention, and in our belief, sends a message to taxpayers that violations of the Internal
Revenue Code and related financial crimes are investigated and prosecuted.
Research suggests that higher levels of criminal sentences lead to greater tax compliance. The
average number of months a subject is incarcerated has increased since FY 2003. The
percentage increase in the number of months a subject is incarcerated for legal source tax
investigations rose 12.5 percent (from an average of 16 to 18 months) between FYs 2003 and
2008, even though it was unchanged from FY 2007 to FY 2008. The incarceration time
increased 18.8 percent (from an average of 32 to 38 months) for illegal source investigations and
6.5 percent (from an average of 77 to 82 months) for narcotics-related investigations between
FYs 2003 and 2008. Both these categories showed increases in months served from FY 2007 to
FY 2008.25
Further, the Division achieved its goals for measuring progress towards impact on compliance
and the quality of the Division’s work. Even though the number of convictions decreased
slightly from FY 2007, it still met the Division’s goal of 2,135.26 In addition, the conviction rate
increased to 92.3 percent in FY 2008, meeting the stated goal. The Division also recorded a
lower cost per conviction than the planned rate of $317,625.

Trends related to the number of investigations per special agent
As measures of its business results, the Division uses the average inventory of subject
investigations per special agent27 and the average total inventory per special agent. The average
inventory calculation includes only open subject investigations, whereas the total inventory
calculation includes primary investigations, open subject investigations, and pipeline subject
investigations.
In FY 2008, the average inventory of subject investigations per special agent was 1.75, a
3.3 percent decrease from 1.81 in FY 2007, and a 12.5 percent decrease from 2 in FY 2003.
Likewise, the total inventory per special agent, which we believe is a better barometer of a
special agent’s workload, decreased slightly to 4.64, a 1.7 percent decrease from 4.72 in
FY 2007, and 3.73 percent decrease from 4.82 in FY 2003.28 However, this was the third
consecutive year in which the total inventory per special agent has decreased, from the recent
high of 5.19 in FY 2005. This has occurred because since FY 2005 the total inventory has
decreased at a higher rate (14.3 percent) than the number of special agents considered in this
calculation (4.3 percent).



25
   See Appendix V, Figure 29.
26
   See Appendix V, Figure 23.
27
   The Division only considers those special agents that were actively working on investigations in these
calculations.
28
   See Appendix V, Figure 10.
                                                                                                            Page 8
                     Statistical Portrayal of the Criminal Investigation Division’s
                     Enforcement Activities for Fiscal Years 2000 Through 2008



Investigations Initiated From External Sources Were Unchanged
The Division initiates investigations from many different sources, from both within and outside
of the IRS. The Division’s primary sources from within include fraud referrals from the
compliance divisions and investigations from the Questionable Refund and Return Preparer
Programs. Sources of investigations from outside the IRS include the United States Attorneys’
Offices and other Government agencies, both Federal and State. In addition, the Division
initiates investigations based on information received from public sources, including the media
and informants.
During FY 2008, 54.9 percent of the 3,749 subject investigations initiated came from the United
States Attorneys’ Offices or other Government agencies. The same percentage was initiated
from these sources in FY 2007. Almost 24 percent of the investigations initiated came from the
United States Attorneys’ Offices alone. The percentage of subject investigations initiated from a
public source remained about the same, slightly increasing to 12.8 percent of total investigations
initiated from 12.7 percent in FY 2007. Also, the percentage of subject investigations initiated
that originated from within the IRS remained about the same at 32.3 percent in FY 2008
compared to 32.5 in FY 2007. The percentage of cases originating from within the IRS has
remained relatively consistent since FY 2003, ranging from a low of 30.1 percent in FY 2004 to
a high of 36.2 percent in FY 2005.29
The Division’s FY 2009 Annual Business Plan states it will continue to commit significant
investigative resources to high-impact legal and illegal source tax investigations and will work
closely with the IRS operating divisions to develop and investigate cases on significant tax
violators. This will help the IRS’ overall efforts to reduce the tax gap (the difference between
taxes paid and taxes owed). We continue to believe that because investigations generated from
internal sources are likely to be legal source tax investigations, the Division should remain
vigilant when evaluating whether the level of cases initiated from sources external to the IRS
maintains a proper balance with stated priorities.

Trends related to fraud referrals declining
In response to our prior report on its legal source income tax program,30 the Division committed
to several steps to enhance and increase the awareness of the Fraud Referral Program. However,
the Division received only 583 fraud referrals in FY 2008, a 4.7 percent decrease from the 612
received in FY 2007 and a 6.7 percent decrease since the recent high of 625 received in FY 2005.
Likewise, the acceptance rate of fraud referrals decreased slightly in FY 2008, by 1.6 percentage
points, but has increased over 16 percentage points from FY 2000.31 Prosecution


29
   See Appendix V, Figure 8.
30
   See Appendix VI, Report 1.
31
   See Appendix V, Figure 9.
                                                                                           Page 9
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2008



recommendations for fraud referrals increased 1.4 percent in FY 2008 from FY 2007. However,
the number of subjects sentenced for a crime decreased 18.2 percent for the same period.
The Division’s FY 2009 Annual Business Plan indicates that it will continue to strengthen the
Fraud Referral Program by working closely with the Small Business/Self-Employed, Large and
Mid-Size Business, Tax Exempt and Government Entities, and Wage and Investment Divisions
to promote fraud awareness and to facilitate fraud training. The FY 2007 and FY 2008 Annual
Business Plans also contained similar language. Since fraud referrals remain a viable and
important source of legal source tax investigations, we are concerned by the recent results of the
Fraud Referral Program with the number of fraud referrals received trending downward since
FY 2005. The Division and the other operating divisions need to continue to emphasize the
importance of these types of investigations as they relate to tax administration and the IRS’
efforts to improve voluntary compliance.




                                                                                           Page 10
                         Statistical Portrayal of the Criminal Investigation Division’s
                         Enforcement Activities for Fiscal Years 2000 Through 2008



                                                                                  Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information and trend analyses of
the Criminal Investigation Division’s enforcement activities for Fiscal Years 2000 through 2008.
To accomplish our objective, we relied on information accumulated by the IRS and the Division
in established reports and from the Criminal Investigation Management Information System
(CIMIS), and did not verify the accuracy of the information. The major issues we focused on
included:
       •   Special Agent1 Staffing.
       •   Investigations:
           a. Initiated.
           b. Open.
           c. In pipeline.
           d. Closed.
           e. Referred for Prosecution.
       •   Subsequent Legal Actions.
       •   Compliance Strategy Programs.




1
    See Appendix IV for a glossary of terms used in this report.
                                                                                         Page 11
                 Statistical Portrayal of the Criminal Investigation Division’s
                 Enforcement Activities for Fiscal Years 2000 Through 2008



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit, Compliance and Enforcement
Operations
Carl Aley, Acting Assistant Inspector General for Audit, Compliance and Enforcement
Operations
Marybeth H. Schumann, Director
Diana M. Tengesdal, Audit Manager
Jeff K. Jones, Lead Auditor
Todd M. Anderson, Senior Auditor
LaToya R. Penn, Auditor




                                                                                      Page 12
                  Statistical Portrayal of the Criminal Investigation Division’s
                  Enforcement Activities for Fiscal Years 2000 Through 2008



                                                                              Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Strategy, Criminal Investigation SE:CI:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                    Page 13
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2008



                                                                                   Appendix IV

                                Glossary of Terms

Business Performance Review – A quarterly review by the Criminal Investigation Division (the
Division) to report on its performance measures, business results, employee and customer
satisfaction, and other items of importance.
Compliance Strategy Program – The Division’s organizational strategy comprised of three
interdependent program areas: Legal Source Tax Crimes, Illegal Source Financial Crimes, and
Narcotics-Related Financial Crimes.
Criminal Investigation Management Information System – A database that tracks the status
and progress of criminal investigations and the time expended by special agents.
Cycle Time – Elapsed calendar days on completed investigations.
Direct Investigative Time – Time spent by special agents conducting investigations and other
law enforcement activities.
Discontinued Investigation – A subject investigation that resulted in a determination that there
was no prosecution potential.
Elapsed Days – The number of days between the initiation of a subject investigation to another
date, such as the date discontinued or date referred for prosecution.
Field Special Agent – A special agent in one of the Division’s 26 field offices.
Fraud Referral Program – A program designed as a partnership between the Division and the
IRS Operating Divisions to promote fraud awareness and assist with fraud training.
Grand Jury Investigation – Investigation conducted through the use of a Federal grand jury to
determine if a subject should be charged with a crime. The use of the Federal grand jury to
investigate the potential crime(s) may be initiated by the Division or by an attorney for the
Federal Government.
Gross Tax Gap – The difference between the amount of tax that taxpayers should pay under the
tax law and the amount they actually pay on time.
Illegal Source Financial Crimes – Crimes involving illegally earned income including crimes
involving money laundering, 18 United States Code (U.S.C.) Sections (§§) 1956 and 1957;
sections of U.S.C. Title 31, Money and Finance; and U.S.C. Title 26 violations investigated in
conjunction with other agencies.



                                                                                         Page 14
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2008



Inventory per Special Agent – The number of open subject investigations divided by the
number of field special agents whose salary grade level is 13 or below and having various
position descriptions, including those of coordinator and reviewer.
IRS Data Book – A publication that provides information on activities conducted by the IRS
such as taxes collected, enforcement, taxpayer assistance, budget, workforce, and other selected
activities.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the Internal Revenue laws. The IRS Oversight Board provides experience, independence, and
stability to the IRS so it may move forward in a cogent, focused direction.
Legal Source Tax Crimes – Crimes involving legal industries and occupations and legally
earned income.
Narcotics-Related Financial Crimes – Crimes involving tax and money laundering related to
narcotics and drug trafficking.
Pipeline Inventory – A subject investigation that has been recommended for prosecution and
the subject has not been convicted or acquitted, or the investigation has not been dismissed. It
excludes investigations where the subject became a fugitive after indictment.
Primary Investigation – An evaluation of an allegation that an individual or entity is in
noncompliance with the Internal Revenue laws and related financial crimes.
Questionable Refund Program – An IRS nationwide, multifunctional program designed to
identify fraudulent returns, stop the payment of fraudulent refunds, and refer identified
fraudulent refund schemes to the Division’s field offices.
Referred for Prosecution – A subject investigation that resulted in the determination of
prosecution potential referred to the Department of Justice or to a United States Attorney’s
Office.
Return Preparer Program – A program that pursues unscrupulous return preparers who
knowingly claim excessive deductions and exemptions on returns prepared for clients. The
clients may or may not have knowledge of the false claims.
Special Agent – A Division law enforcement employee who investigates potential criminal
violations of the Internal Revenue laws and related financial crimes.
Subject Investigation – An investigation of an individual or entity alleged to be in
noncompliance with the laws enforced by the IRS and having prosecution potential.
Subject Seizure Investigation – An investigation to locate and seize assets that are subject to
seizure or forfeiture under various U.S.C. titles and sections such as 26 U.S.C. § 7302 or
18 U.S.C. §§ 981, 982 or 984.

                                                                                            Page 15
                   Statistical Portrayal of the Criminal Investigation Division’s
                   Enforcement Activities for Fiscal Years 2000 Through 2008



Tax-Related Violation – A violation involving Title 26, Title 33 sections, or one of the
following Title 18 sections: § 286, § 287, § 371, or § 514 associated with a Title 26 violation, or
§ 371 associated with a Title 26 and a Title 31 violation.
Title 18 – U.S.C. Title 18, Crimes and Criminal Procedure. Various sections of Title 18 apply to
violations that are within the jurisdiction of the Division. Examples include § 286, Conspiracy to
Defraud the Government with Respect to Claims; § 287, False, Fictitious, or Fraudulent Claims;
§ 371, Conspiracy to Commit Offense or to Defraud United States; and §§ 1956 and 1957,
Laundering of Monetary Instruments and Engaging in Monetary Transactions in Property
Derived from Specified Unlawful Activity. The most common section investigated under this
statute is money laundering.
Title 26 – U.S.C. Title 26, Internal Revenue Code.
Title 31 – U.S.C. Title 31, Money and Finance. Several sections of Title 31 apply to violations
that are within the jurisdiction of the Division. Examples include § 5322, Criminal Penalties (for
willful violations of Title 31 sections), and § 5324, Structuring Transactions to Evade Reporting
Requirement Prohibited.
Title 33 – U.S.C. Title 33, Taxation and Finance–Virgin Islands. Several sections of Title 33
apply to violations that are within the jurisdiction of the Division. Examples include § 1521,
Attempt to Evade or Defeat Tax; § 1522, Conspiracy to Evade or Defeat Tax; and § 1523,
Willful Failure to Collect or Pay Over Tax.




                                                                                           Page 16
                         Statistical Portrayal of the Criminal Investigation Division’s
                         Enforcement Activities for Fiscal Years 2000 Through 2008



                                                                                                                        Appendix V

             Detailed Charts of Statistical Information

Figure 1 – Special Agent and Field Special Agent Staffing at the End of Each Fiscal Year ...........Page 19
Figure 2 – Special Agent Direct Investigative Time Expended Each Fiscal Year ...........................Page 19
Figure 3 – Percentage of Direct Investigative Time Spent on Legal Source Tax and Total
           Tax Investigations Each Fiscal Year...............................................................................Page 20
Figure 4 – Number of Subject Investigations Initiated and the Number Initiated per Field
           Agent Each Fiscal Year...................................................................................................Page 20
Figure 5 – Number of Subject Investigations Initiated Each Fiscal Year for Tax-Related or
           Nontax-Related Violations and the Percentage That Is Tax-Related..............................Page 21
Figure 6 – Number of Subject Investigations Initiated Each Fiscal Year by Compliance
           Strategy Program and the Percentage That Is Legal Source Tax Crimes........................Page 21
Figure 7 – Number of Subject Investigations Initiated Each Fiscal Year by Principle
           United States Code Title .................................................................................................Page 22
Figure 8 – Number of Subject Investigations Initiated Each Fiscal Year by Source of the
           Allegation or Information ...............................................................................................Page 22
Figure 9 – Number of Fraud Referrals Received Each Fiscal Year and the Percentage
           Accepted .........................................................................................................................Page 23
Figure 10 – Number of Open Subject Investigations and the Total of All Investigations
            at the End of Each Fiscal Year and the Number of Each per Special Agent .................Page 23
Figure 11 – Number of All Types of Investigations Open at the End of Each Fiscal Year ...............Page 24
Figure 12 – Number of Open Subject Investigations Each Fiscal Year for Tax-Related or
            Nontax-Related Violations and the Percentage That Is Tax-Related..............................Page 24
Figure 13 – Number of Open Subject Investigations Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes........................Page 25
Figure 14 – Number of Open Subject Investigations at the End of Each Fiscal Year
            by Type of Investigation (Grand Jury or Nongrand Jury)...............................................Page 25
Figure 15 – Number of Subject Investigations Discontinued or Referred for
            Prosecution Each Fiscal Year and the Percentage Referred for Prosecution ..................Page 26
Figure 16 – Average Elapsed Days of Subject Investigations Discontinued and Referred
            for Prosecution Each Fiscal Year ....................................................................................Page 26


                                                                                                                                     Page 17
                         Statistical Portrayal of the Criminal Investigation Division’s
                         Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 17 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year
            for Tax-Related or Nontax-Related Violations and the Percentage That Is
            Tax-Related .....................................................................................................................Page 27
Figure 18 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year
            by Compliance Strategy Program and the Percentage That Is Legal Source
            Tax Crimes ......................................................................................................................Page 27
Figure 19 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year
            by Principle United States Code Title .............................................................................Page 28
Figure 20 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year
            by Type of Investigation (Grand Jury or Nongrand Jury Investigation) .........................Page 28
Figure 21 – Number of Tax-Related and Nontax-Related Subject Investigations
            in the Pipeline Each Fiscal Year and the Percentage That Is Tax-Related .....................Page 29
Figure 22 – Number of Subject Investigations in the Pipeline Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes........................Page 29
Figure 23 – Number of Subjects Convicted and Sentenced for a Crime Each Fiscal Year................Page 30
Figure 24 – Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes........................Page 30
Figure 25 – Number of Subject Investigations Initiated, Referred for Prosecution, Indicted,
            and Convicted Each Fiscal Year .....................................................................................Page 31
Figure 26 – Number of Subjects Sentenced for a Crime Each Fiscal Year for Tax-Related
            or Nontax-Related Violations and the Percentage That Is Tax-Related .........................Page 31
Figure 27 – Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes........................Page 32
Figure 28 – Number of Subjects Sentenced for a Crime Each Fiscal Year by Principle
            United States Code Title .................................................................................................Page 32
Figure 29 – Average Number of Months a Subject Is Incarcerated Each Fiscal Year by
            Compliance Strategy Program ........................................................................................Page 33
Figure 30 – Percentage of Investigations That Received Publicity Each Fiscal Year by
            Compliance Strategy Program ........................................................................................Page 33




                                                                                                                                     Page 18
                         Statistical Portrayal of the Criminal Investigation Division’s
                         Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 1: Special Agent and Field Special Agent Staffing at the End of Each Fiscal Year.

      3,000

      2,800                            2,902
                           2,822                  2,800      2,796      2,823       2,804
      2,600     2,734
                                                                                               2,684
                                       2,610                                                              2,617
                2,513                             2,543                             2,511
      2,400                2,477                             2,490
                                                                                               2,435          2,271
                                                                        2,416
      2,200
                FY 00      FY 01      FY 02       FY 03      FY 04      FY 05      FY 06       FY 07      FY 08


                                        Special Agents         Field Special Agents

    Source: The Criminal Investigation Division’s (the Division) analysis of staffing information.

Figure 2: Special Agent Direct Investigative Time Expended Each Fiscal Year.1


     65%

     64%

     63%

     62%

     61%
                 60.9%



                            60.2%




                                        63.3%



                                                   63.7%



                                                              62.5%




                                                                          63.3%



                                                                                      63.2%



                                                                                                65.0%




                                                                                                            64.1%

     60%

     59%
               FY 00      FY 01      FY 02       FY 03      FY 04       FY 05      FY 06      FY 07      FY 08


    Source: The Division’s analysis of direct investigative time information for FYs 2000 through 2002 and CIMIS
    Report INV001 (Criminal Investigation Summary Statistics) for FYs 2003 through 2008.




1
  In FY 2006, the Division revised its calculation formula for direct investigative time on tax and tax-related
investigations; therefore, the numbers reflected in this figure may not agree with prior reports.
                                                                                                                    Page 19
                                      Statistical Portrayal of the Criminal Investigation Division’s
                                      Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 3: Percentage of Direct Investigative Time Spent on Legal Source Tax and Total
Tax2 Investigations Each Fiscal Year.

      80%

      70%




                                                                                                                                                 70.0%
      60%




                                                                                                                                                                          69.0%




                                                                                                                                                                                                   70.8%
                                                                                        64.1%




                                                                                                                            66.5%
                                                                                                         64.7%
                                                                     59.4%
                              56.2%




                                                  57.2%




      50%

      40%

      30%




                                                                                                                                                                  50.4%
                                      39.1%




                                                                              42.4%




                                                                                                 43.2%




                                                                                                                                                                                           51.2%
              41.8%




                                                          39.9%




                                                                                                                    44.8%




                                                                                                                                         48.2%
      20%

      10%
               FY 00                   FY 01               FY 02               FY 03               FY 04              FY 05                  FY 06                FY 07                     FY 08

                                                                                       Legal Source                         Total Tax


    Source: The Division’s BPR reports for FYs 2000 through 2006 and CIMIS Report INV001 (Criminal
    Investigation Summary Statistics) for FY 2007 and FY 2008 legal source data. The Total Tax computation for
    FYs 2004 through 2008 was from the Division’s BPR report for FY 2008. The Total Tax computation for
    FYs 2000 through 2003 was from the Division’s analysis of the CIMIS.

Figure 4: Number of Subject Investigations Initiated and the Number Initiated per Field
Agent Each Fiscal Year.

      4,500                                                                                                                                                                                          3.00
                                                                                                                  4,269




                                                                                                                                                          4,211


      4,000
                                                                               4,001
                                                             3,906




                                                                                                 3,917




                                                                                                                                     3,907




                                                                                                                                                                                                     2.50
                                                                                                                                                                                   3,749
      3,500
                      3,372




                                          3,284




      3,000
                                                                                                                                                                                                     2.00
      2,500
      2,000                                                                                                          93                                      91
                                                                                                                  1.                                      1.                          77             1.50
                                                                                 74                 74                                  70                                         1.
      1,500                                                    65             1.                 1.                                  1.
                         51                                 1.
                      1.                     48
      1,000                               1.                                                                                                                                                         1.00
       500
         0                                                                                                                                                                                           0.50
                FY 00                 FY 01               FY 02              FY 03              FY 04            FY 05              FY 06                FY 07                    FY 08

                                                             Subject Initiations                                   Initiations per Field Agent


    Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005, CIMIS Report INV002 (Summary by
    Program Area) for FYs 2006 through 2008, and our analysis based on the number of field special agents provided
    by the Division.

2
 During FY 2008, the Division changed how it calculates direct investigative time devoted to legal and illegal
source tax cases. The Division now calculates “total tax,” which is the percentage of direct investigative time
devoted to legal source and illegal source tax cases, in lieu of “tax and tax-related” because it is more representative
of the total resources the Division commits to its tax enforcement mission. This new computation includes time
spent on legal source general investigations that are a source of tax subject investigations.
                                                                                                                                                                                                   Page 20
                                            Statistical Portrayal of the Criminal Investigation Division’s
                                            Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 5: Number of Subject Investigations Initiated Each Fiscal Year for Tax-Related or
Nontax-Related Violations and the Percentage That Is Tax-Related.

  2,800                                                                                                                                                                                                                                                       100%




                                                                                                                                                          2,631
  2,400




                                                                                                                                                                                                          2,516
                                                                         2,468



                                                                                                 2,452




                                                                                                                                                                                  2,445
                                                                                                                                                                                                                                                              90%




                                                                                                                                                                                                                                   2,283
                                                                                                                            2,164
  2,000
                                                1,854




                                                                                                                                                                                                                                                              80%
                      1,786




                                                                                                                                       1,753
  1,600




                                                                                                                                                                                                                     1,695
                                                                                                                                                                    1,638
                                1,586




                                                                                                                 1,549




                                                                                                                                                                                            1,462




                                                                                                                                                                                                                                              1,466
                                                           1,430




                                                                                      1,438




  1,200
                                                                                                                                                                                                                                                              70%
    800
                                                 56.5%                                                                       55.2%                                                                                                                            60%
    400                53.0%                                                 63.2%                                                                                                 62.6%
                                                                                                   61.3%                                                   61.6%                                                                    60.9%
                                                                                                                                                                                                           59.7%
          0                                                                                                                                                                                                                                                   50%
                       FY 00                     FY 01                       FY 02                 FY 03                     FY 04                         FY 05                   FY 06                   FY 07                    FY 08

                                                                   Tax-Related                                             Nontax-Related                                                    % Tax-Related


Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002 (Summary by Program
Area) for FYs 2006 through 2008.

Figure 6: Number of Subject Investigations Initiated Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.
  1,800                                                                                                                                                                                                              1,731                                     100%
                                                                                                                                                          1,693




                                                                                                                                                                                            1,686




  1,600
                                                                                                                                                                                                            1,664



                                                                                                                                                                                                                                                               90%
                                                                                                                                                                   1,632
                                                                     1,554




                                                                                                         1,535




                                                                                                                                    1,537




                                                                                                                                                                                                                                      1,531
                                                                                                                                                                                   1,524
                                                                                               1,506
                                                                              1,485




  1,400

                                                                                                                                                                                                                                                1,441
                                                                                                                                                                                                                                                               80%
                                                                                                                           1,370
                                                   1,313




  1,200
              1,254




                                                                                                                                                                                                                                                               70%
                                1,109




  1,000
                                        1,020
                        1,009




                                                                                                                                               1,010




                                                                                                                                                                                                                                                               60%
                                                                                                                     960
                                                            951




                                                                                                                                                                            944




   800
                                                                                         867




                                                                                                                                                                                                                             816




                                                                                                                                                                                                                                                        777


                                                                                                                                                                                                                                                               50%
                                                                                                                                                                                                    697




   600
                                                                                                                                                                                                                                                               40%
   400
                                                                             39.8%                                                                                39.7%                    39.0%                    39.5%                     40.8%
   200                37.2%                                                                            37.6%                                                                                                                                                   30%
                                                                                                                                   35.0%
                                                31.1%
     0                                                                                                                                                                                                                                                         20%
                      FY 00                     FY 01                        FY 02                     FY 03                       FY 04                          FY 05                    FY 06                    FY 07                     FY 08

                                                                     Legal Source                           Illegal Source                             Narcotics-Related                        % Legal Source


Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2008.




                                                                                                                                                                                                                                                        Page 21
                     Statistical Portrayal of the Criminal Investigation Division’s
                     Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 7: Number of Subject Investigations Initiated Each Fiscal Year by Principle United
States Code Title.

  3,000

  2,500                                                      2,199          2,141                  2,137
           1,922                               2,004                                      1,996
                                   1,911
  2,000               1,700                                                                                    1,855

                                     1,847                                  1,975                  1,933
                                               1,875                                      1,781              1,769
  1,500
                                                             1,602
                      1,482
  1,000    1,360


   500                             148          122           116            153          130       141      125
            90         102

      0
           FY 00      FY 01       FY 02        FY 03         FY 04          FY 05        FY 06     FY 07    FY 08

                                  Title 18       Title 26           Title 31 and Other


Source: CIMIS Report 11 (Program Summary Analysis) and the Division’s analysis of the CIMIS.

Figure 8: Number of Subject Investigations Initiated Each Fiscal Year by Source of the
Allegation or Information. IRS sources include fraud referrals from the compliance divisions,
investigations developed by the Fraud Detection Centers, and currency transactions.

   2,500


   2,000                                       2,191
            2,144      2,064                                2,286          2,267         2,085    2,310    2,060
                                   2,016
   1,500
                                                                            1,547
                                  1,334                                                  1,374    1,367
   1,000                                       1,266
                                                            1,179
                                                                                                           1,211
            812       809
    500
           416                      556         544                                                534      478
                       411                                   452             455         448
      0
           FY 00      FY 01        FY 02       FY 03        FY 04          FY 05         FY06      FY07     FY08

                               USAO & other Govt agencies           Public & other       IRS


 Source: Our analysis of the CIMIS and CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through
 2005 and the Division’s analysis of the CIMIS for FYs 2006 through 2008. USAO = United States Attorney’s
 Offices




                                                                                                             Page 22
                                    Statistical Portrayal of the Criminal Investigation Division’s
                                    Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 9: Number of Fraud Referrals Received Each Fiscal Year and the Percentage Accepted.
      700
                                                                                                                                                                                                        120%




                                                                                                                              625
      600




                                                                                                                                                                           612
                                                                                                                                                     603




                                                                                                                                                                                              583
                                                                                                                                                                                                        100%




                                                                              559




                                                                                                      530
      500                                                 526
                                     486




                                                                                                                                                                                                        80%
                 436




      400

                                                                                                                       68.8%                     71.5%                    68.6%                         60%
                                                                                                                                                                                             67.0%
      300                                               62.9%               61.2%
                                                                                                  58.0%
                                    53.8%
            50.8%                                                                                                                                                                                       40%
      200

      100                                                                                                                                                                                               20%


        0                                                                                                                                                                                               0%
                FY 00               FY 01               FY 02               FY 03                 FY 04                FY 05                     FY 06                    FY 07              FY 08
                                                                  Number Received                                Percentage Accepted


    Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV001 (Criminal
    Investigation Summary Statistics) for FYs 2006 through 2008.

Figure 10: Number of Open Subject Investigations and the Total of All Investigations at
the End of Each Fiscal Year and the Average Number of Each per Special Agent.3
       14,000                                                                                                                                                                                         6.00
                       5.41
                                                                                                                         5.19
       12,000                                                                                             4.94
                                           4.75                                 4.82                                                            4.76                 4.72               4.64          5.00
                                                             4.46
       10,000


        8,000
                                                                                                                                                                                                      4.00
                           12,063




                                                                                                                                    11,467
                                                                                    11,101




                                                                                                            11,118




                                                                                                                                                       10,902
                                              10,572




                                                                   10,534




        6,000
                                                                                                                                                                            10,374




                                                                                                                                                                                                      3.00
                                                                                                                                                                                              9,822
                                                                            4,615
                                                          4,395




        4,000
                                                                                                                      4,283




                                                                                                                                             4,034




                                                                                                                                                                  3,981
                   3,749




                                      3,702




                                                                                                                                                                                     3,691
                                                                                                  4,136




                                                                                                                                                                                                      2.00
        2,000                                                                   2.00                                     1.94
                                                             1.86                                    1.84                                       1.76                 1.81               1.75
                       1.68                1.66
            0                                                                                                                                                                                         1.00
                       FY 00          FY 01               FY 02              FY 03                FY 04               FY 05                  FY 06                FY 07              FY 08

                 Open Inventory                        Total Inventory                       Avg Subject Inventory per Agent                                    Avg Total Inventory per Agent


    Source: The Division’s analysis of the CIMIS.


3
  During FY 2006, the Division revised its formula for determining total inventory. The new formula does not
include subject seizure investigation information or open primary investigations if they had a corresponding subject
investigation. As a result, the inventory numbers reported in Figure 10 for prior FYs changed and may not agree
with our prior reports. Total inventory includes primary investigations not yet elevated to subject investigations,
open subject investigations currently being worked in field offices, and subject investigations referred for
prosecution (pipeline).

                                                                                                                                                                                                      Page 23
                                  Statistical Portrayal of the Criminal Investigation Division’s
                                  Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 11: Number of All Types of Investigations Open at the End of Each Fiscal Year.4

       14,000
       12,000
       10,000            3,484
                                          2,992             2,733           3,072             3,633           3,846
                                                                                                                               3,943
        8,000                                                                                                                                  4,060
                                                                                                                                                               4,118
                         3,749
        6,000                             3,702             4,395           4,615                             4,283
                                                                                              4,136                            4,034
        4,000                                                                                                                                  3,981           3,691
        2,000            4,830            3,878             3,406           3,414             3,349           3,338            2,925           2,333           2,013
             0
                         FY 00            FY 01             FY 02           FY 03             FY 04           FY 05            FY 06           FY 07           FY 08


                                                 Primary Investigations                 Open Inventory                Pipeline Inventory


    Source: The Division’s analysis of the CIMIS.

Figure 12: Number of Open Subject Investigations Each Fiscal Year for Tax-Related or
Nontax-Related Violations and the Percentage That Is Tax-Related.

     4,000                                                                                                                                                             100%

     3,500
                                                                    3,458




                                                                                                                                                                       90%
                                                    3,337




                                                                                                      3,258
                                                                                      3,140




                                                                                                                       3,134




     3,000
                                                                                                                                       2,936




                                                                                                                                                       2,864
                                  2,729




     2,500
                 2,629




                                                                                                                                                                       80%
     2,000                                                                                                              77.7%                           77.6%
                                                     75.9%           74.9%             75.9%           76.1%
     1,500                         73.7%                                                                                                73.8%                          70%
                  70.1%
                                                                            1,157




     1,000
                          1,120




                                                            1,058




                                                                                                                                               1,045
                                                                                                              1,025
                                                                                              996
                                           973




                                                                                                                                                                       60%
                                                                                                                               900




                                                                                                                                                               827




       500

         0                                                                                                                                                             50%
                  FY 00            FY 01             FY 02           FY 03             FY 04           FY 05            FY 06           FY 07           FY 08

                                                   Tax-Related                      Nontax-Related                    % Tax-Related


    Source: The Division’s BPR reports for FYs 2000 through 2005 and the CIMIS Report INV002 (Summary by
    Program Area) for FYs 2006 through 2008.

4
  During FY 2006, the Division revised its formula for determining total inventory. The new formula does not
include subject seizure investigation information or open primary investigations if they had a corresponding subject
investigation. As a result, the inventory numbers reported in Figure 11 for the prior FYs changed and may not agree
with our prior reports. Total inventory includes primary investigations not yet elevated to subject investigations,
open subject investigations currently being worked in field offices, and subject investigations referred for
prosecution (pipeline).

                                                                                                                                                                     Page 24
                                 Statistical Portrayal of the Criminal Investigation Division’s
                                 Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 13: Number of Open Subject Investigations Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.

  2,500                                                                                                                                                                                                               65%




                                                                            2,170




                                                                                                                          2,121
                                                      2,102

  2,000                                                                                                                                                                                                               60%




                                                                                                  2,050




                                                                                                                                                  2,006




                                                                                                                                                                        1,990




                                                                                                                                                                                              1,973
          1,839




                                1,681




  1,500                                                                                                                                                                                                               55%

                                                                                                                                                                                                 53.5%
  1,000                                                                                                                                                                                                               50%
                                                                                                     49.6%                   49.5%                   49.7%                 50.0%
             49.1%                  45.4%
                                                         47.8%
   500                                                                         47.0%                                                                                                                                  45%
                  1,111




                                        1,402




                                                              1,695




                                                                                    1,783




                                                                                                          1,544




                                                                                                                                  1,688




                                                                                                                                                          1,664




                                                                                                                                                                                1,515




                                                                                                                                                                                                      1,317
                          799




                                                619




                                                                      598




                                                                                            662




                                                                                                                  542




                                                                                                                                          474




                                                                                                                                                                  364




                                                                                                                                                                                        476




                                                                                                                                                                                                              401
     0                                                                                                                                                                                                                40%
             FY 00                 FY 01                 FY 02                 FY 03                 FY 04                   FY 05                   FY 06                 FY 07                 FY 08
                                                                      Legal Source                                                              Illegal Source
                                                                      Narcotics-Related                                                         % Legal Source


Source: The Division’s BPR reports for FYs 2000 through 2005 and the CIMIS Report INV002 (Summary by
Program Area) for FYs 2006 through 2008.

Figure 14: Number of Open Subject Investigations at the End of Each Fiscal Year by
Type of Investigation (Grand Jury or Nongrand Jury).

  3,500
                                                              2,634                     2,863               2,566                    2,621
  3,000
                  2,377                 2,334                                                                                                                      2,378                  2,375               2,191
  2,500

  2,000
  1,500
                                                              1,761                 1,751                         1,570                   1,662                    1,656                  1,606                     1,500
  1,000
            1,371                   1,367
   500

      0
                  FY 00                 FY 01                  FY 02                   FY 03                      FY 04                   FY 05                   FY 06                  FY 07                  FY 08
                                                                                    Grand Jury                                Nongrand Jury


Source: CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through 2007 and the Division’s analysis of
the CIMIS for FY 2008.




                                                                                                                                                                                                                     Page 25
                               Statistical Portrayal of the Criminal Investigation Division’s
                               Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 15: Number of Subject Investigations Discontinued or Referred for Prosecution
Each Fiscal Year and the Percentage Referred for Prosecution.

      3,500

      3,000                                                                                                                                                                          95%




                                                                                                3,037




                                                                                                                2,859




                                                                                                                                                     2,837




                                                                                                                                                                         2,785
                                                                                                                                 2,720
      2,500




                                                                              2,541
                                                                                                                                                                                     85%
                       2,434




                                       2,335




      2,000
                                                         2,133



      1,500     69.6%           69.9%                                                   69.2%            69.7%                                                                       75%
                                                                                                                                                                     68.9%
                                                66.6%                 67.5%                                                                   66.5%
                                                                                                                          65.4%
      1,000
                                                                                                                                                                                     65%
               1,065




                               1,005




                                               1,068




                                                                     1,225




                                                                                       1,350




                                                                                                        1,245




                                                                                                                         1,437




                                                                                                                                             1,432




                                                                                                                                                                 1,259
       500

           0                                                                                                                                                                         55%
                FY 00           FY 01           FY 02                 FY 03             FY 04            FY 05            FY 06               FY 07                  FY 08

                                         Discontinued                        Referred for Prosecution                   % Referred for Prosecution




    Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2004, the CIMIS Report 11 (Program
    Summary Analysis) for FY 2005, and the CIMIS Report INV001 (Criminal Investigation Summary Statistics) for
    FYs 2006 through 2008.

Figure 16: Average Elapsed Days of Subject Investigations Discontinued and Referred for
Prosecution Each Fiscal Year.5

     600
                               505.7
     550
               483.2                            492.1                                          461.4
     500
                                                                             426.8                               436.8                                  412.7
                                                                                                                                     424.5
     450
                                                                                                                                                                                  381.7
     400
                                                       413.2
     350                                                                     383.8
                                 362.4                                                         367.8            386.6             383.8                      361.2
     300
               315.7                                                                                                                                                             341.2
     250
     200
               FY 00           FY 01              FY 02                      FY 03             FY 04            FY 05               FY 06                    FY 07               FY 08

                                                                 Discontinued Cases                     Referred Cases


    Source: The Division’s analysis of the CIMIS for FYs 2000 through 2007 and the Division’s BPR report for
    FY 2008.


5
 The Division revised its calculation formula in FY 2006 to include discontinued investigations that had been closed
because of lack of resources. As a result, the numbers reported in Figure 16 for prior FYs may have changed and
may not agree with our prior reports.
                                                                                                                                                                                   Page 26
                                     Statistical Portrayal of the Criminal Investigation Division’s
                                     Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 17: Number of Subject Investigations Referred for Prosecution Each Fiscal Year
for Tax-Related or Nontax-Related Violations and the Percentage That Is Tax-Related.

  1,800                                                                                                                                                                                                                        100%

  1,600
                                                                                                                                                                                                                               90%




                                                                                                                        1,573




                                                                                                                                                                                                                 1,488
  1,400




                                                                                                            1,464




                                                                                                                                  1,454




                                                                                                                                                                                1,430
                                                                                                                                             1,405




                                                                                                                                                                                          1,407
                           1,389




                                                                                                                                                                  1,369
                                                                                  1,359
                                                                                                                                                                                                                               80%




                                                                                                                                                        1,351
                                                  1,326




                                                                                                                                                                                                        1,297
  1,200


                                                                                                  1,182
                                                                      1,104



  1,000                                                                                                                                                                                                                        70%
                   1,045




                                                            1,029
                                         1,009




   800                                                                                                                                                                                                                         60%
   600
                                                                                                                                                                                                                               50%
                                                                                   53.5%
   400                                                                                                                             50.9%                49.7%                   50.4%
                                                            48.2%                                           48.2%                                                                                       46.6%                  40%
   200             42.9%                 43.2%
         0                                                                                                                                                                                                                     30%
                   FY 00                 FY 01              FY 02                  FY 03                    FY 04                  FY 05                FY 06                   FY 07                   FY 08

                                                                Tax-Related                                Nontax-Related                               % Tax-Related


Source: The Division’s BPR reports for FYs 2000 through 2005 and the CIMIS Report INV002 (Summary by
Program Area) for FYs 2006 through 2008.

Figure 18: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.
 1,400                                                                                                                                                                                                                          100%
                                                                                                                                                                                         1,313
                                                                                                                    1,289




                                                                                                                                                                                                                                90%
                                                                                                                                                                1,265




 1,200                                                                                                                                                                                                           1,204
                                                                                                                                          1,141




                                                                                                                                                                                                                                80%
 1,000
                                                                                          1,034




                                                                                                                                                                                976




                                                                                                                                                                                                                                70%
                                            953




                                                                                                                                  951
                           926




                                                                                                                                                                                                         893
                                                                                                           869
                                                                864




  800
                                                                                                                            879




                                                                                                                                                        834
                                                                                 823




                                                                                                                                                                                                                                60%
                                                   847
                     799




                                                                                                                                                  767
             709




                                                                                                     684




                                                                                                                                                                                                                         688




                                                                                                                                                                                                                                50%
                                                                        659




  600
                                                                                                                                                                          621
                                                          610




                                                                                                                                                                                                  548
                                   535




                                                                                                                                                                                                                                40%
  400
                                                                                                                                                                                                                                30%
                                                                                                                                          33.3%                                         34.4%
                                                                                       32.4%                                                                    30.7%                                           32.1%
  200          29.1%                                            28.6%                                            28.6%
                                                                                                                                                                                                                                20%
                                         22.9%
    0                                                                                                                                                                                                                           10%
               FY 00                 FY 01                  FY 02                  FY 03                     FY 04                  FY 05                  FY 06                    FY 07                       FY 08
                                                                              Legal Source                                                Illegal Source
                                                                              Narcotics-Related                                           % Legal Source

Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2008.

                                                                                                                                                                                                                           Page 27
                    Statistical Portrayal of the Criminal Investigation Division’s
                    Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 19: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Principle United States Code Title.

 2,500
                                                              1,922                                    1,681
                                                                           1,779     1,694     1,766
 2,000
          1,573      1,539                  1,594
                                1,289
 1,500
                                                                                               976       994
           794                   772                          1,002        991         940
 1,000                                       876
                     728
   500                                                                                          95       110
           67        68          72           71              113           89          86
     0
          FY 00      FY 01      FY 02        FY 03            FY 04        FY 05       FY 06   FY 07    FY 08

                             Title 18              Title 26              Title 31 and Other

Source: CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through 2005, the Division’s analysis of the
CIMIS for FYs 2006 and 2007, and CIMIS Report INV011 (Selected Statistical Summary) for FY 2008.

Figure 20: Number of Subject Investigations Referred for Prosecution Each Fiscal Year
by Type of Investigation (Grand Jury or Nongrand Jury Investigation).

  3,000
                                                              2,449                   2,147
                                                                           2,293               2,248    2,244
  2,500
          1,990      1,955                  2,051
  2,000                          1,700

  1,500

  1,000
            444                   433        490              588          566         573     589      541
                      380
   500

     0
           FY 00     FY 01       FY 02       FY 03            FY 04        FY 05       FY 06   FY 07    FY 08

                                         Grand Jury                 Nongrand Jury


Source: CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through 2005 and the Division’s analysis of
the CIMIS for FYs 2006 through 2008.




                                                                                                               Page 28
                                              Statistical Portrayal of the Criminal Investigation Division’s
                                              Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 21: Number of Tax-Related and Nontax-Related Subject Investigations in the
Pipeline Each Fiscal Year and the Percentage That Is Tax-Related.

                                                                                                                                                                                                                                                                   70%




                                                                                                                                                                                                               2,102
                                                                                                                                                                                   2,095




                                                                                                                                                                                                                                         2,071
 2,000




                                                                                                                                                 2,050




                                                                                                                                                                                                                                                 2,047
                                                                                                                                                                                                                                                                   65%




                                                                                                                                                                                                                       1,958
                                                                                                                    1,887




                                                                                                                                                                                             1,848
                                                                                                                                                                 1,796
            1,808




                                                                                                                                1,746
                            1,676




 1,600                                                                                    1,630
                                                                                                                                                                                                                                                                   60%
                                                   1,514
                                        1,478




                                                                                                    1,442
                                                                            1,387
                                                                  1,346




 1,200                                                                                                                                                                                                                                                             55%


                                                                                          53.1%                                                  53.3%                             53.1%
  800       51.9%                                                                                                   51.9%                                                                                          51.8%                                           50%
                                                                                                                                                                                                                                         50.3%
                                         49.4%                    49.2%
  400                                                                                                                                                                                                                                                              45%



    0                                                                                                                                                                                                                                                              40%
            FY 00                        FY 01                    FY 02                   FY 03                     FY 04                        FY 05                             FY 06                           FY 07                 FY 08

                                                                 Tax-Related                                       Nontax-Related                                                          % Tax-Related


Source: The Division’s BPR reports for FYs 2000 through 2005 and the CIMIS Report INV002 (Summary by
Program Area) for FYs 2006 through 2008.

Figure 22: Number of Subject Investigations in the Pipeline Each Fiscal Year by
Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.

                                                                                                                                                                                                                                                                         90%
1,800
                                                                                                                                                                                                                                1,770




                                                                                                                                                                                                                                                           1,733



                                                                                                                                                                                                                                                                         80%
                                                                                                                                                                                                     1,683




1,500
                                                                                                                                                                     1,555




                                                                                                                                                                                                                                                  1,492
                                                                                                                                  1,473




                                                                                                                                                                                                                       1,458




                                                                                                                                                                                                                                                                         70%
                                                                                                                                                                                           1,371
                                                                                                                                                         1,351
         1,284




1,200
                                                                                                                        1,209
                                                                                                     1,177




                                                                                                                                                                                                                                                                         60%
                    1,148




                                                1,110




                                                                                            1,080
                                1,052




                                                                           1,028




  900
                                                           947




                                                                                                                                          951




                                                                                                                                                                             940
                                        935




                                                                                                                                                                                                                                                                   893
                                                                                                                                                                                                             889




                                                                                                                                                                                                                                                                         50%
                                                                  866


                                                                                    839




                                                                                                                                                                                                                                        832
                                                                                                             815




  600
                                                                                                                                                                                                                                                                         40%

  300    36.9%                                                                                                                                                                                                                                            36.2%
                                                                                                    35.2%                                                           35.1%                          34.8%                       35.9%                                     30%
                                                                                                                            33.3%
                                              31.3%                       31.7%
    0                                                                                                                                                                                                                                                                    20%
             FY 00                        FY 01                           FY 02                   FY 03                     FY 04                                FY 05                         FY 06                           FY 07                     FY 08

                                                        Legal Source                              Illegal Source                                Narcotics-Related                                              % Legal Source


Source: The Division’s BPR reports for FYs 2000 through 2005 and the CIMIS Report INV002 (Summary by
Program Area) for FYs 2006 through 2008.

                                                                                                                                                                                                                                                                    Page 29
                       Statistical Portrayal of the Criminal Investigation Division’s
                       Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 23: Number of Subjects Convicted and Sentenced for a Crime Each Fiscal Year.

  3,000
             2,475
  2,500                     2,251
                                              2,201                                               2,151                                   2,155
                                                                                 2,008                                                                      2,144
                                                                                                                      2,020
  2,000                                                        1,824
                            2,238
              2,249                                                                                2,095                                   2,123
                                                                                                                     2,019                                   1,957
                                              1,926
  1,500                                                        1,768             1,777


  1,000

   500

         0
              FY 00     FY 01             FY 02                FY 03             FY 04             FY 05             FY 06                 FY 07             FY 08

                                                          Convicted                          Sentenced

Source: The IRS Data Books, Publication 55B, for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2008.

Figure 24: Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.

 1,200                                                                                                                                                                         100%
                                                                                                                                                                               90%
                                                                                                                                                                  958
                                                                                                                                                947
                                                                                                                          938
                            937




 1,000                                                                                                                                                                         80%
                                                                                                        894
                                                                                     837




                                                                                                                                                                               70%
                                              788
                785




                                  766




                                                                   760
               756




                                                                                                                                          732




  800                                                                                                                                                                          60%
             708




                                                                                                                                                            666
                                                                                                  655
                                                    616




                                                                                                                                                                               50%
                                                                                                              602
                                                                                           593




                                                                                                                    592
                                                                         585


                                                                               578
                      548




                                        522




                                                                                                                                                                        520




  600                                                                                                                                                                          40%
                                                                                                                                489
                                                             479




                                                                                                                                                      476




                                                                                                                                                                               30%
  400         31.5%                                                                                 30.5%                                   34.0%             31.1%            20%
                        24.3%             27.1%                26.3%             28.8%                                    29.3%
                                                                                                                                                                               10%
  200                                                                                                                                                                          0%
             FY 00     FY 01             FY 02                FY 03             FY 04              FY 05             FY 06                 FY 07             FY 08

                            Legal Source                    Illegal Source                   Narcotics-Related                        % Legal Source


Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2008.




                                                                                                                                                                              Page 30
                           Statistical Portrayal of the Criminal Investigation Division’s
                           Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 25: Number of Subject Investigations Initiated, Referred for Prosecution,
Indicted, and Convicted Each Fiscal Year. Because actions on a specific investigation may
cross fiscal years, the data shown in investigations initiated may not always represent the same
universe of investigations shown in other actions within the same fiscal year.

                                                                                                 4,269                                            4,211
  4,500
                                             3,906                            3,917                                     3,907
  4,200                                                         4,001
                                                                                                                                                                       3,749
  3,900
          3,372
  3,600
                           3,284
                                                                               3,037
  3,300
                                                                                                                                                                       2,785
                                                                                                     2,859                                        2,837
  3,000
                                                                                                                        2,720
          2,434                                                 2,541
  2,700
                            2,335            2,133                                   2,489                                                                               2,547
                   2,469                                                                                 2,406
  2,400                                                                                                                           2,319
                                  2,292                         2,128                                                                                      2,323
  2,100   2,249             2,251                   1,926
                                                                                                     2,151                                        2,155                2,144
  1,800
                                                1,924                          2,008                                    2,019
                                                               1,824
  1,500
          FY 00            FY 01             FY 02              FY 03         FY 04              FY 05              FY 06                         FY 07                FY 08

                            Initiated                    Referred for Prosecution                    Indicted                     Convicted

Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV001
(Criminal Investigation Summary Statistics) for FYs 2006 through 2008.

Figure 26: Number of Subjects Sentenced for a Crime Each Fiscal Year for
Tax-Related or Nontax-Related Violations and the Percentage That Is Tax-Related.

  1,600                                                                                                                                                                          85%

  1,400
                                                                                                                                                                                 75%
                   1,341




                                 1,332




  1,200
                                                     1,178
          1,134




                                                                                                                                          1,112
                                                                                                      1,080




  1,000                                                                                                                                                                          65%
                                            1,023




                                                                                                                          1,024
                                                                                             1,015




                                                                                                                                                               1,016
                                                                                                                                                   1,011
                                                                                                                  996




                                                                                                                                                                        941
                                                                      933




                                                                                    922
                           906




    800
                                                                             855
                                                               835




    600                                                                                                                                                                          55%

    400                      40.5%                                                                                                                52.4%                51.9%
                                                                                                                        49.3%                                                    45%
                                                                     47.2%         48.1%             48.4%
    200           45.8%                             46.5%

      0                                                                                                                                                                          35%
           FY 00           FY 01             FY 02             FY 03         FY 04           FY 05                FY 06                   FY 07                FY 08

                                         Tax-Related                    Nontax-Related                        % Tax-Related

Source: The Division enforcement statistics from the IRS internet web site for FYs 2000 through 2005 and the
CIMIS Report INV002 (Summary by Program Area) for FYs 2006 through 2008.

                                                                                                                                                                                  Page 31
                                 Statistical Portrayal of the Criminal Investigation Division’s
                                 Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 27: Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.
 1,000                                                                                                                                                                                           60%




                                                                                                                                                               978
  900




                                                                                                                    900
                                                    888                                                                                                                                          55%




                                                                                                                                                                                   864
                                                                                                                                        861
                                  859
               846




                                 831




  800
             819
             810




                                                                                                                                                                                                 50%




                                                                                               750
  700
                                                                           726
                                                          721




                                                                                                                                                         677
                                                                                                                                                                                                 45%




                                                                                                                                                                             645
  600




                                                                                                                                  624
                                                                                                              615
                                              592




                                                                                                                          580
                                                                                 568
                           548




                                                                                                                                              535
  500                                                                                                                                                                                            40%



                                                                                                     520
                                                                                         507
                                                                     474




                                                                                                                                                                     468




                                                                                                                                                                                         448
  400
                                                                                                                                                                                                 35%
  300
              33.1%                                                                                                                                                             33.0%            30%
                                                                                                                                                               31.9%
  200                                                                                                                                   30.9%
                                                                                                                 29.4%
                                                                                               28.5%                                                                                             25%
  100                                               26.9%                  26.8%
                                 24.5%
    0                                                                                                                                                                                            20%
             FY 00           FY 01              FY 02                  FY 03                FY 04                FY 05               FY 06                 FY 07                FY 08

                           Legal Source                         Illegal Source                             Narcotics-Related                             % Legal Source


Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2008.

Figure 28: Number of Subjects Sentenced for a Crime Each Fiscal Year by Principle
United States Code Title.

  1,400

  1,200
              1,342              1,324                1,236                                                               1,212                1,194                   1,219
  1,000
                                                                                 1,018               1,040                                                                                1,136
    800
                868
                                                     769                                                                                                               768
    600
                                   666                                                                                                        707                                          698
                                                                                  594                                     704
                                                                                                      573
    400
                194                168
    200                                                   117                     111                 91                    107
                                                                                                                                                    76                     83                   79
                      71                 80                     79                     45                   73                  72                       43                     53
         0                                                                                                                                                                                        44
               FY 00              FY 01               FY 02                      FY 03               FY 04                FY 05                FY 06                   FY 07                   FY 08

                                                      Title 18                           Title 26                         Title 31                        Other

 Source: CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through 2005 and the Division’s analysis of
 the CIMIS for FYs 2006 through 2008.

                                                                                                                                                                                                Page 32
                         Statistical Portrayal of the Criminal Investigation Division’s
                         Enforcement Activities for Fiscal Years 2000 Through 2008



Figure 29: Average Number of Months a Subject Is Incarcerated Each Fiscal Year by
Compliance Strategy Program. Incarcerated may include prison time, home confinement,
electronic monitoring, or a combination thereof.

  100
   90




                                                                                                                           94
   80




                                                                                                      82




                                                                                                                                                               82
                                                81




                                                                                                                                             80
                                 79




                                                               77
                  76




   70




                                                                                    72
   60
   50
   40




                                                                                                                                                          38
                                                                                                                      37




                                                                                                                                        35
   30




                                                                                                 34
                                           33




                                                          32




                                                                              32
                            31
             27




   20
                                                                         18




                                                                                                                                   18




                                                                                                                                                     18
                                                                                            17




                                                                                                                 17
                                                     16
        15




                                      15




   10
                       13




    0
          FY 00          FY 01          FY 02          FY 03                FY 04             FY 05               FY 06              FY 07             FY 08

                                      Legal Source                    Illegal Source                   Narcotics-Related


 Source: The Division’s analysis of the CIMIS for FYs 2000 through 2005 and the CIMIS Report INV002
 (Summary by Program Area) for FYs 2006 through 2008.

Figure 30: Percentage of Investigations That Received Publicity Each Fiscal Year by
Compliance Strategy Program.
 100%

 90%
                                                                                                                                                      88.5%
                                                                                                                                    87.1%




                                                                                                                                                     86.6%
                                                                                                                 84.1%




 80%
                                                                                                                                   82.9%
                                                                                              81.8%


                                                                                                                81.3%
                                                                            78.1%
                                                             77.7%




                                                                                            77.6%
                                             76.1%




 70%
                                                                         71.0%
                                                         67.9%
                              64.5%




 60%
                                        62.8%




                                                                                                                                             62.2%




                                                                                                                                                               61.8%
            59.5%




                                                                                                      59.7%
                                      57.0%




                                                     56.0%




                                                                                    55.8%




                                                                                                                           55.5%
                          54.6%




 50%
        49.6%

        49.1%




                       48.1%




 40%

 30%

 20%

 10%

  0%
          FY 00          FY 01          FY 02          FY 03               FY 04              FY 05               FY 06              FY 07            FY 08

                                  Legal Source                       Illegal Source                           Narcotics-Related

Source: The Division’s BPR reports.




                                                                                                                                                          Page 33
           Statistical Portrayal of the Criminal Investigation Division’s
           Enforcement Activities for Fiscal Years 2000 Through 2008



                                                                         Appendix VI

 Related Treasury Inspector General for Tax
        Administration Audit Reports

1. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 1999 Through Fiscal Year 2003 (Reference Number 2004-10-115,
   dated June 29, 2004).
2. The Criminal Investigation Function Has Made Progress in Investigating Criminal
   Tax Cases; However, Challenges Remain (Reference Number 2005-10-054, dated
   March 31, 2005).
3. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 2000 Through Fiscal Year 2005 (Reference Number 2006-10-074,
   dated May 12, 2006).
4. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 2000 Through Fiscal Year 2006 (Reference Number 2007-10-083,
   dated June 6, 2007).
5. While Renowned for Its Forensic Capabilities, the Digital Evidence Program Faces
   Challenges and Needs More Controls (Reference Number 2008-10-106, dated
   April 30, 2008).
6. Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities
   for Fiscal Years 2000 Through 2007 (Reference Number 2008-10-133,
   dated July 9, 2008).




                                                                                  Page 34
